           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Quality Control Review on the                                         Date:    September 12, 2014
           Single Audit of the San Francisco Municipal
           Transportation Agency, California
           Report No. QC-2014-106


  From:    George E. Banks, IV                                                             Reply to
                                                                                           Attn. of:   JA-20
           Program Director for Single Audit

    To:    Regional Administrator, FTA, Region IX


           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the San Francisco Municipal Transportation Agency, California
           (SFMTA). This report presents the results of our Quality Control Review (QCR)
           on the DOT’s major grant program included in the single audit of SFMTA
           performed by KPMG LLP (KPMG) for SFMTA’s fiscal year ended June 30, 2013.
           During this period, SFMTA expended approximately $107 million from DOT
           grant programs. KPMG determined that DOT’s major program was the Federal
           Transit Cluster.

           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           KPMG rendered an unmodified opinion on SFMTA’s financial statements and
           compliance with DOT’s major program requirements for the Federal Transit
           Cluster and did not question any costs. 1




           1
               The single audit report issued by KPMG LLP is available upon request to singleauditrequest@oig.dot.gov.
                                                                                 2


SCOPE

The purpose of our QCR was to determine: (1) whether the audit work complied
with the Single Audit Act of 1984, as amended, and OMB Circular A-133; and
(2) the extent to which we could rely on the auditors’ work on DOT’s major
program, the Federal Transit Cluster.

RESULTS

We determined that KPMG’s audit work was Acceptable, and therefore, met the
requirements of the Single Audit Act, OMB Circular A-133, and DOT’s major
program. We found nothing to indicate that KPMG’s opinion on DOT’s major
program was inappropriate or unreliable.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #

cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
    Capital projects & Grants Accounting Manager, SFMTA
    Partner, KPMG
